Charles Moerdler
Stroock & Stroock & Lavan LLP
33rd Floor
180 Maiden Lane
New York, NY 10038
(212) 806-5648
cmoerdler@stroock.com
Counsel for Professional Staff Congress Local 2334; American Federation of Teachers
AFL-CIO, and New York State United Teachers
Kent Hirozawa
Gladstein, Reif & Meginniss, LLP
39 Broadway
New York, NY 10006
(212) 228-7727
khirozawa@grmny.com
Counsel for American Federation of Labor and Congress of Industrial Organizations
David Slutsky
Levy Ratner, P.C.
8th Floor
80 8th Avenue
New York, NY 10001
(212) 627-8100
dslutsky@levyratner.com
Counsel for American Association of University Professors Collective Bargaining
Congress
Michael James Del Piano
New York United Teachers
9th Floor
52 Broadway
New York, NY 10004
(212) 228-3382
Michael.delpian@nysut.org
Counsel for National Education Association of the United States, Faculty Association
of Suffolk Community College, and United University Professions (Farmingdale
State College Chapter)

